No.
IN THE
SUPREME COURT OF THE UNITED STATES
ROBYN JILL FARRINGTON - PETITIONER
VS.
U.S. BANK TRUST N.A., as trustee for LSF9 Master Participation Trust:
LSF9 MASTER PARTICIPATION TRUST;
CALIBER HOME LOANS, INC.; JP MORGAN CHASE BANK, N.A. RESPONDENTS
PROOF OF SERVICE
I, ROBYN JILL FARRINGTON, do swear or declare that on this date, 12 June
2020, as required by Supreme Court Rule 29,1 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Day Pitney
One Jefferson Road
Parsippany, NJ 07054
* counsel for US BANK TRUST N.A.
LSF9 MASTER PARTICIPATION TRUST
CALIBER HOME LOANS, INC.
JP MORGAN CHASE BANK, N.A. -Respondents
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 12 June 2020

